Case 18-3223, Document 132-1, 05/29/2020, 2850060, Pagel of 10

18-3223-pr
Barnes v. Fedele, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
Federal Rule of Appellate Procedure 32.1 and this court's Local Rule 32.1.1.
When citing a summary order in a document filed with this court, a party must
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
"SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 29th day of May, two thousand twenty.
PRESENT:

ROBERT D. SACK,
RICHARD C. WESLEY,
DENNY CHIN,
Circuit Judges.
x

ARRELLO BARNES,
Plaintiff-Appellant,
-v-

LOUIS FEDELE, CORRECTION OFFICER,
MICHAEL FURMAN, SERGEANT, ROBERT
MURPHY, CORRECTION OFFICER,
THERESA STANLEY, CHAPLAIN, PAUL J.
CHAPPIUS, JR., DEPUTY SUPERINTENDENT
OF SECURITY, ANGELA BARTLETT,
DEPUTY SUPERINTENDENT OF
PROGRAMS, JOHN NUTTALL, DEPUTY
COMMISSIONER OF PROGRAM SERVICES,

18-3223-pr

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page2 of 10

Defendan ts-Appellees.*
x
FOR PLAINTIFF-APPELLANT:

ALAN M. MENDELSOHN (Ira M.
Feinberg, on the brief), Hogan Lovells US
LLP, New York, New York.

FOR DEFENDANTS-APPELLEES:

KATE H. NEPVEU, Assistant Solicitor
General (Barbara D. Underwood,
Solicitor General, and Victor Paladino,
Senior Assistant Solicitor General, on the
brief), for Letitia James, Attorney General
of the State of New York, Albany, New
York.

Appeal from the United States District Court for the Western District of
New York (Larimer, /.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the order of the district court is AFFIRMED in part
and VACATED in part, and the action is REMANDED for further proceedings
consistent with this order.
Plaintiff-appellant Arrello Barnes appeals from an order issued by the
district court on October 2, 2018 denying his motion for summary judgment and
(

granting summary judgment in favor of defendants-appellees, a group of officers and
employees at Southport Correctional Facility ("Southport") of the New York State

The Clerk of the Court is respectfully directed to amend the official caption to conform
to the above.
-2-

O'

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page3 of 10

Department of Correctional and Community Supervisions ("DOCCS"). On appeal,
Barnes argues that the district court erred by granting summary judgment for all
defendants-appellees because they failed to proffer legitimate penological interests
supporting the creation and carrying out of the directive at issue, which led to the
confiscation of Barnes's religious headwear. Moreover, Barnes contends that the district
court erred in denying his cross-motion for summary judgment and asks that we
remand for a determination of damages. We assume the parties' familiarity with the
underlying facts, the procedural history of the case, and the issues on appeal.

BACKGROUND
In January 2007, Barnes, an inmate at Southport, identified as Jewish and
wore a Tsalot-Kob, a religious headwear, because his yarmulke did not fit over his
dreadlocks. A then-DOCCS prison directive — Directive 4202 (the "Directive") —
however, permitted only Rastafarians to wear Tsalot-Kobs, and consequently
Southport corrections officers confiscated Barnes's headwear.1 The confiscated TsalotKob was turned over to Sergeant Michael Furman, who then delivered it to Chaplain
Theresa Stanley. Stanley ultimately determined that the confiscation was proper
because Jewish inmates at that time were permitted to wear only yarmulkes as
headwear.

1
The details of the confiscation of Barnes's headwear are disputed. These details,
however, are immaterial, as Southport Corrections Officers Louis Fedele and Robert Murphy
have acknowledged that they were involved in the confiscation in late January 2007.
-3-

O

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page4 of 10

Barnes contested the confiscation by utilizing the prison grievance
procedures and writing additional letters to other prison and DOCCS officials, which
alleged that Deputy Commissioner of Program Services John Nuttall, Deputy
Superintendent of Programs Angela Bartlett, and Deputy Superintendent of Security
Paul Chappius, Jr. supported the confiscation. The grievances were denied because
under the Directive only yarmulkes -- not Tsalot-Kobs — were proper headwear for
Jewish inmates.
Barnes filed the complaint below, naming Bartlett, Chappius, Fedele,
Furman, Murphy, Nuttall, and Stanley as defendants (collectively, "Defendants").2 On
February 12, 2014, the district court granted summary judgment in favor of Defendants
and dismissed Barnes's complaint. See Barnes v. Fedele, No. 07-CV-6197, 2014 WL
11460504, at *1 (W.D.N.Y. Feb. 12, 2014). Although it found that Barnes's free exercise
rights under the First Amendment and the Religious Land Use and Institutionalized
Persons Act of 2000 ("RLUIPA") were violated, id. at *6, the district court ruled that
Defendants were entitled to qualified immunity, id. at *7.
Barnes appealed, and we affirmed in part, vacated in part, and remanded
via summary order. See Barnes v. Furman, 629 F. App'x 52, 57 (2d Cir. 2015). Relevant
here, we found that the record needed to be further developed to determine whether
Defendants were, indeed, entitled to qualified immunity. Id. at 56-57. Specifically, we

Other defendants named in Barnes's complaint have been dismissed.
-4-

Case 18-3223, Document 132-1,05/29/2020, 2850060, Page5 of 10

explained that it was unclear whether there was a legitimate penological interest in
"limit[ing] Jewish inmates' head coverings to yarmulkes only." Id. at 56. Moreover, we
held that even if there was a legitimate penological interest, Defendants would still
have to show that they acted in an objectively reasonable manner by following the
Directive. Id. at 57. Finally, we noted that the analysis for the Defendants who were
merely applying the Directive — that is, Bartlett, Chappius, Fedele, Murphy, and Stanley
— might be different than the analysis for the Defendant who implemented the policy —
that is, Nuttall. Id.
On remand, Defendants accompanied their motion for summary
judgment with declarations from five of the remaining six Defendants. Although
Chappius was not involved in creating the Directive and did not sign off on it, his
declaration provided his "understanding" of the penological interest behind the policy:
Because religious crowns (i.e., religious head coverings) can be used to hide
"[cjontraband, such as drugs and weapons ... the limitations of crowns to just those of
Rastafarian faith[] was to limit the number of ... crowns to be searched." J. App'x at
190. The remaining declarations, which were from Bartlett, Fedele, Murphy, and
Stanley, all stated that the declarants believed they were following a lawful policy.
Nuttall did not submit a declaration, and no one else opined on the penological interest
behind the creation of the Directive. Barnes cross-moved for summary judgment,
arguing, inter alia, that there was no support for the purported penological interest
-5-

%

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page6 of 10

articulated by Chappius and that none of the Defendants had referenced such a reason
in the responses they wrote to his grievances.
On October 2, 2018, the district court once again held that Defendants
were entitled to qualified immunity and denied Barnes's cross-motion for summary
judgment. Barnes v. Fedele, 337 F. Supp. 3d 227, 235 (W.D.N.Y. 2018). The district court
noted that Defendants "have now identified penological reasons for the policy
underlying [the Directive], insofar as it relates to the restrictions on Tsalot-Kobs." Id. at
234. It remarked that "Nuttall could reasonably have believed that such a restriction
was constitutionally permissible, given the legitimate penological interest in reducing
the risk of smuggling contraband into prisons." Id. It also held that the Defendants who
merely followed the Directive — that is, every Defendant other than Nuttall — were
entitled to qualified immunity because there was no reason for them to question the
constitutionality of the Directive. Id. This appeal followed.
DISCUSSION
We review a district court's decision to grant summary judgment de novo,
with the view that "[s]ummary judgment may be granted only if there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of
law." Vincent v. The Money Store, 736 F.3d 88, 96 (2d Cir. 2013) (internal quotation marks
omitted). A party may submit affidavits and declarations in support of its motion for
summary judgment, provided the statements included therein are "made on personal
-6-

H

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page7 of 10

knowledge" and "set out facts that would be admissible in evidence." Fed. R. Civ. P.
56(c)(4). When reviewing the district court's grant of a motion for summary judgment,
we resolve all ambiguities and draw all factual inferences in favor of the non-moving
party. See Topps Co. v. Cadbury Stani S.A.I.C., 526 F.3d 63, 68 (2d Cir. 2008). Summary
judgment must be granted when "the record taken as a whole could not lead a rational
trier of fact to find for the non-moving party." Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986).
Qualified immunity "shields government officials from civil liability
'insofar as their conduct does not violate clearly established statutory or constitutional
rights of which a reasonable person would have known.'" Farid v. Ellen, 593 F.3d 233,
244 (2d Cir. 2010) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). It is clearly
established that although inmates retain their free exercise rights, prisons may abridge
those rights "if reasonably related to some legitimate penological interests." Ford v.
McGinnis, 352 F.3d 582, 594 (2d Cir. 2003). In the Fourth Amendment context, the
Supreme Court has held that visual body-cavity inspections can be conducted in
detention facilities even when officers do not have probable cause because they
promote the "significant and legitimate security interests" of preventing the
"[sjmuggling of money, drugs, weapons, and other contraband." Bell v. Wolfish, 441 U.S.
520, 559-60 (1979); see also Sec. & Law Enf't Emps., Dist. Council 82, Am. Fed'n of State, Cty.
& Mun. Emps., AFL-CIO by Clay v. Carey, 737 F.2d 187, 204 (2d Cir. 1984) (noting "the
-7-

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page8 of 10

important governmental interest in controlling the flow of contraband into correctional
facilities"). If a policy is, indeed, constitutional, state actors who enforce that policy
almost always have qualified immunity because carrying out a lawful policy is
reasonable. See Wilson v. Layne, 526 U.S. 603, 617-18 (1999) (officers acted reasonably in
following a department policy and were therefore entitled to qualified immunity even
though that policy later turned out to be unconstitutional). If a policy is
unconstitutional, those enforcing it may nevertheless be entitled to qualified immunity
if "a reasonable [actor] might have believed that the challenged order was lawful in
light of legitimate pen[o]logical interests supporting [the policy]." Holland v. Goord, 758
F.3d 215, 223 (2d Cir. 2014).
As to the Defendants applying the Directive — that is, Bartlett, Chappius,
Fedele, Murphy, and Stanley — we conclude that the district court did not err in
granting them summary judgment. Regardless of whether the Directive was
constitutional, these Defendants acted reasonably in carrying it out because they
reasonably believed it was constitutional at the time. Chappius, who at the time was
deputy superintendent of security at Southport, explained that he understood that the
Directive was aimed at preventing prisoners from concealing contraband in their
headwear and limiting the number of searches that corrections officers had to conduct.
Preventing the flow of contraband in prison is certainly a legitimate penological
interest, see Wolfish, 441 U.S. at 559-60; Carey, 737 F.2d at 204, and it is logical that
-8-

CL

Case 18-3223, Document 132-1, 05/29/2020, 2850060, Page9 of 10

requiring officers to conduct excessive searches would distract them from their other
duties. Therefore, Chappius acted reasonably in carrying out what he believed to be a
constitutional directive, see Wilson, 526 U.S. at 617-18, and he was entitled to summary
judgment. Similarly, it was reasonable for Bartlett, Fedele, Murphy, and Stanley — each
of whom attested that they were carrying out what they believed to be a lawful policy —
to enforce the Directive, as carrying out a lawful policy is reasonable. See id.
Accordingly, the district court did not err in granting summary judgment for these
Defendants.
As to Nuttall, however, we conclude that the district court erred in
granting him summary judgment. Nuttall relies primarily on White v. Pauly, 137 S. Ct.
548, 551 (2017), which he argues changed the law after our last remand and required
there to be "clearly established" precedent showing that an official violated the law
before he can be stripped of qualified immunity. Appellee's Br. at 13. We disagree.
White did not change the law; it merely "reiterate[d] the longstanding principle that
clearly established law should not be defined at a high level of generality." 137 S. Ct. at
552 (internal quotation marks omitted). Here, the law is and has been specific and clear:
Prison officials may only abridge a prisoner's free exercise rights if doing so is
"reasonably related to some legitimate penological interests." Ford, 352 F.3d 594.
Importantly, Nuttall was the only Defendant involved in creating the
Directive, yet he did not provide a declaration explaining the penological purpose
-9-

Case 18-3223, Document 132-1, 05/29/2020, 2850060, PagelO of 10

behind its creation. Indeed, he did not provide any declaration. Nevertheless, the
district court imputed the penological interest articulated by Chappius onto Nuttall. See
Barnes, 337 F. Supp. 3d at 234. This was error, as nothing in the record sets forth
Nuttall's motivation or thinking. As we indicated when this case was last before us, the
analysis for the Defendants who merely applied the Directive is different than the
analysis for the Defendant who implemented it. See Barnes, 629 F. App'x at 57. It is
possible, after all, that Chappius's "understanding" of the policy, J. App'x at 190, was
not aligned with Nuttall's reason for signing the Directive. Accordingly, on the record
before us, Nuttall is not entitled to summary judgment.3

Accordingly, we AFFIRM the order of the district court in part, VACATE
in part, and REMAND the action for further proceedings consistent with this order.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

3
To the extent that Barnes appeals the district court's denial of his cross-motion for
summary judgment, we conclude that he did not show that he was entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(c)(1) ("A party asserting that a fact cannot be ... genuinely
disputed must support the assertion by ... citing to particular parts of materials in the record . .
. or .. . showing ... that an adverse party cannot produce admissible evidence to support the
fact.").
-10-

Case 18-3223, Document 150, 08/11/2020, 2905248, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
11th day of August, two thousand twenty.

Arrello Barnes,
Plaintiff - Appellant,
ORDER
v.

Docket No: 18-3223

Louis Fedele, Correction Officer, Michael Furman,
Sergeant, Robert Muiphy, Correction Officer, Theresa
Stanley, Chaplain, Paul J. Chappius, Jr., Deputy
Superintendent of Security, Angela Bartlett, Deputy
Superintendent of Programs, JohnNuttall, Deputy
Commissioner of Program Services,
Defendants - Appellees.

Appellant, Arrello Barnes, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

1

Case 6:07-cv-06197-DGL-JWF Document 205 Filed 10/03/18 Page 1 of 1
Judgment in a Civil Case
United States District Court
WESTERN DISTRICT OF NEW YORK

Arrello Barnes

JUDGMENT IN A CIVIL CASE
CASE NUMBER: 07-CV-6197

v.
Fedele, et al.
□ Jury Verdict. This action came before the Court for a trial by jury. The
issues have been tried and the jury has rendered its verdict.
Kl Decision by Court. This action came before the Court. The issues have
been heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that the complaint is dismissed.

Date: October 3, 2018

MARY C. LOEWENGUTH
CLERK OF COURT
By: Barbara Keenan
Deputy Clerk

Case 18-3223, Document 145, 07/10/2020, 2881969, Page2 of 33

TABLE OF CONTENTS
Page
INTRODUCTION AND RULE 35 STATEMENT

1

FACTUAL AND PROCEDURAL BACKGROUND

4

REASONS FOR GRANTING REHEARING
I.

The Panel’s Decision Conflicts with Settled Supreme Court and
Circuit Precedent.......................................................................

CONCLUSION

10

10
18

l

Case 18-3223, Document 145, 07/10/2020, 2881969, Page3 of 33

TABLE OF AUTHORITIES
Page(s)
Cases
Amaker v. Goord,
No. 06- CV- 490A (SR),
2010 WL 2595286 (W.D.N.Y. Mar. 25, 2010)

6

Barnes v. Furman,
629 F. App’x 52 (2d Cir. 2015)......................

6

Benjamin v. Coughlin,
905 F.2d 571 (2d Cir. 1990)............................

13

Burrell v. Zurek,
No. 917-CV-0906 (LEK) (TWD),
2019 WL 4051596 (N.D.N.Y. Aug. 28, 2019)

11

Davis v. Scherer,
468 U.S. 183 (1984).........................................

16

Harlow v. Fitzgerald,
457 U.S. 800(1982).........................................

16

Hartline v. Gallo,
546 F.3d 95 (2d Cir. 2008).....................:........

4,11

Holland v. Goord,
758 F.3d 215 (2d Cir. 2014)............................

7, 12

Lauro v. Charles,
219 F.3d 202 (2d Cir. 2000)............................

4, 11, 12

Owen v. City ofIndependence,
445 U.S. 622 (1980).........................................

17

Sorensen v. City ofNew York,
42 F. App’x 507 (2d Cir. 2002).......................

11

Wilson v. Layne,
526 U.S. 603 (1999).........................................

4,11,-14

li

Case 18-3223, Document 145, 07/10/2020, 2881969, Page4 of 33

INTRODUCTION AND RULE 35 STATEMENT
Plaintiff-Appellant Arrello Barnes respectfully seeks panel rehearing and
rehearing en banc of the panel’s decision on this appeal. This appeal arises from
Barnes’ damages action under 42 U.S.C. § 1983, in which he seeks redress for the
unlawful seizure by officers of the New York State Department of Correctional
and Community Supervision (“DOCCS”) of his religious head covering—a
“Tsalot-Kob“—pursuant to a DOCCS directive that explicitly limited Tsalot-Kobs
to Rastafarians. Barnes identified- as Jewish, but wore the Tsalot-Kob because a
yarmulke would not fit over his dreadlocks.
On a prior appeal, a panel of this Court reversed the District Court’s initial
grant of summary judgment to Defendants, and remanded for reconsideration. The
prior decision made clear that a policy that expressly discriminated on the basis of
religion was unconstitutional, but remanded for the District Court to determine
whether Defendants were entitled to qualified immunity, i. e., to assess whether
there was any legitimate penological interest supporting such a policy and, if not,
whether Defendants could show that they reasonably believed they were enforcing
a lawful policy. When the District Court once again granted summary judgment to
Defendants, Barnes took this appeal.
The panel on this appeal reversed the District Court’s ruling as to Defendant
John Nuttall, at the time DOCCS’ Deputy Commissioner of Program Services,
1

Case 18-3223, Document 145, 07/10/2020, 2881969, Page5 of 33

ruling that he had failed to show any penological justification for his actions in
approving the unconstitutional policy. But the panel affirmed summary judgment
as to the other six Defendants, holding that, “[rjegardless of whether the Directive
was constitutional,” the subordinate officers were all entitled to qualified immunity
because they “acted reasonably in carrying it out” and “reasonably believed it was
constitutional at the time.” Summary Order at 8.
There is no support for the panel’s holding as to these Defendants. For
starters, the officers did not act reasonably “in carrying . . . out” the DOCCS
policy—indeed, they were not “carrying out” the DOCCS policy at all. Instead,
the record shows that they were carrying out a nonexistent policy—that Jewish
inmates were only authorized to wear yarmulkes—which finds no support in the
DOCCS Directive. Moreover, many of the officers believed that Barnes’ headwear
was a Kufi, not a Tsalot-Kob, and thus they could not possibly have been enforcing
the policy, which did not restrict Kufis. And the officers’ confiscation of the
Tsalot-Kob flouted the Directive’s procedural requirements, which would have
allowed Barnes to keep his headwear while an investigation was underway.
There is also no support for the panel’s assertion that the officers
“reasonably believed [the policy] . . . was constitutional at the time.” Id. None of
the officers even claimed that they had a reasonable belief that the policy was
constitutional. Most Defendants merely “attested that they were carrying out what
2

Case 18-3223, Document 145, 07/10/2020, 2881969, Page6 of 33

they believed to be a lawful policy,” id. at 9, without any explanation as to why
they believed such a facially unconstitutional policy was lawful or why this belief
was reasonable.

Only one Defendant—Paul Chappius, the facility’s Deputy

Superintendent for Security—offered any justification for the policy:

his

“understanding” that it reflected a concern that contraband could be concealed in a
Tsalot-Kob. But that security concern does not provide any reasonable basis for
limiting Tsalot-Kobs to inmates based on their choice of religion, or respond to the
basis for this Court’s remand—to detennine whether there was a “legitimate
penological reason to limit only Tsalot-Kobs to inmates registered as Rastafarian.”
JA 171. Further, one Defendant, Sergeant Michael Furman, did not submit any
declaration explaining his actions. Yet the panel apparently affirmed summary
judgment as to him, too, based on nothing at all.
In short, the officers’ defense boiled down to a claim that they were acting in
furtherance of a state policy that they had no role in creating, even if the policy was
facially unconstitutional.

And the panel agreed, even though there was no

evidence they had a reasonable belief that their actions were lawful, and they were
not actually following the policy.
This holding is contrary to settled Supreme Court and Circuit precedent, and
cannot be permitted to stand. While the existence of a state policy is relevant to
the qualified immunity reasonableness analysis, the Supreme Court has
3

Case 18-3223, Document 145, 07/10/2020, 2881969, Page7 of 33

consistently held that “a policy . . . could not make reasonable a belief that was
contrary to a decided body of case law.”

Wilson v. Layne, 526 U.S. 603, 617

(1999). This Court has repeatedly made the same point. See, e.g., Hartline v.
Gallo, 546 F.3d 95, 103 (2d Cir. 2008); Lauro v. Charles, 219 F.3d 202, 216 (2d
Cir. 2000).
The panel’s ruling is also of exceptional importance because it sends a
perverse message to law enforcement officers that they will not be accountable for
their actions so long as they point to a state policy that they purport to be
following-

:ven where they are not following that policy.

Removing

accountability from officers’ interactions with the public encourages officers to
take actions that they could not reasonably believe are lawful, and, as current
events show, can lead to devastating consequences.
The panel should reconsider its decision to grant these officers qualified
immunity. Alternatively, the full Court should vacate the panel’s decision and
rehear this case en banc.

FACTUAL AND PROCEDURAL BACKGROUND
This case began in 2007, when DOCCS officers confiscated Barnes’
religious head covering, a Tsalot-Kob. Summary Order at 3. Barnes identified as
Jewish but, because of his dreadlocks, chose to wear a Tsalot-Kob over the more
traditional yarmulke. Id. DOCCS Directive 4202 (the “Directive”), in force at the
4

Case 18-3223, Document 145, 07/10/2020, 2881969, Page8 of 33

time, provided that Tsalot-Kobs are “only authorized for members of the
Rastafarian faith.” JA 209.
When Corrections Officers Louis Fedele and Robert Murphy observed
Barnes wearing the Tsalot-Kob, they confiscated it on sight and turned it over to
Sergeant Michael Furman, who, in turn, delivered it to Chaplain Theresa Stanley.
Summary Order at 3.2 Chaplain Stanley—who is not Jewish—determined the
confiscation proper “because Jewish imnates . . . were permitted to wear only
yarmulkes.” Id. Chaplain Stanley took this action even though the Directive set
out no such limitation for Jewish inmates, required investigations to be conducted
by “a Chaplain of the inmate’s faith f and mandated that inmates “shall be
permitted to wear the head covering until the investigation is completed.” JA 209
(emphasis added).
Barnes contested the confiscation through the facility’s internal grievance
procedures and by writing letters to DOCCS officials.

Summary Order at 4.

Nuttall, Chappius, and the facility’s Deputy Superintendent of Programs, Angela
The Directive was revised after Barnes filed this lawsuit, and no longer limits an
inmate’s choice of headwear based on their religious affiliation. JA 168.
Barnes and Defendants dispute the precise circumstances of the confiscation,
including Barnes’ allegation that Defendants Fedele and Murphy forged cell search
records in an effort to comply with DOCCS policies. But, as the panel recognized,
the details are “immaterial” here, since both Fedele and Murphy have
acknowledged that they were involved in the confiscation. Summary Order at 3 &
n.l.
5

Case 18-3223, Document 145, 07/10/2020, 2881969, Page9 of 33

Bartlett, approved the confiscation, likewise because “only yarmulkes . . . were
proper headwear for Jewish inmates.” Id. In a memorandum to Furman, Bartlett
acknowledged that the proper procedures had not been followed, because “a
facility chaplain [should have been] asked to investigate prior to the item being
confiscated.” Dkt. #119 at 36.
In 2007, Barnes filed his complaint in the Western District of New York. In
2014, the District Court (Larimer, J.), on dueling motions for summary judgment,
held that the Directive was unconstitutional “insofar as it was enforced to prevent
plaintiff from adopting the religious crown specific to plaintiffs sincerely-held
beliefs,” because ‘“there is no legitimate reason for DOCS to afford members of
only one religious denomination the opportunity to adhere to a sincerely held
religious belief.’” JA 156 (quoting Amaker v. Goord, No. 06- CV- 490A (SR),
2010 WL 2595286, at *12 (W.D.N.Y. Mar. 25, 2010)).

But the District Court

nonetheless granted summary judgment to Defendants on the basis of qualified
immunity and dismissed the complaint.
This Court reversed. JA 162-72.3 The Court held that “it has been clearly
i

established that burdens on prisoners’ free exercise rights must be justified by a
legitimate penological interest.” JA 169. Nonetheless, the Court explained, there

3 The earlier panel’s summary order is reported as Barnes v. Furman, 629 F.
App’x 52 (2d Cir. 2015).
6

Case 18-3223, Document 145, 07/10/2020, 2881969, PagelO of 33

remained the question whether “reasonable persons in [Defendants’] position
would not have understood that their conduct was within the scope of the
established prohibition.”

JA 171.

The Court could not answer that question

because Defendants provided no “legitimate penological reason to limit only
Tsalot-Kobs to inmates registered as Rastafarian.” Id. It therefore remanded to the
District Court for further development of the record. But this Court cautioned that
identifying such an interest would be a tall order, since “there is no legitimate
reason for DOCS to afford members of only one religious denomination the
opportunity to adhere to a sincerely held religious belief relative to grooming or
headwear.”

JA 170-71.

In discussing the District Court’s task in assessing

qualified immunity, this Court recognized that the “individual corrections officers
who confiscated Barnes’ Tsalot-Kob may very well have been acting reasonably
when following DOCS policy,” but ruled that resolution of that question would
ultimately depend on “whether a reasonable officer might have believed that the
challenged order was lawful in light of legitimate penological interests supporting
the directive.” JA 171 (quoting Holland v. Goord, 758 F.3d 215, 223 (2d Cir.
2014) (quotations omitted)).
On remand, five of the seven Defendants submitted declarations in support
of their motion for summary judgment. Nuttall—the only Defendant involved in
creating the Directive—did not submit a declaration. Neither did Furman. Fedele,
7

Case 18-3223, Document 145, 07/10/2020, 2881969, Page11 of 33

Murphy, Stanley, and Bartlett each stated that they believed they were following a
lawful policy—but none explained why they believed the policy was lawful or why
that belief would be reasonable, or identified any legitimate penological interest
behind the policy.

See JA 185-98, 244-47.

Only Chappius explained his

“understanding” of the penological interest behind the Directive—that it sought to
limit the number of Tsalot-Kobs in the facility because they can be used to hide
contraband. JA 190. But Chappius did not provide any explanation for why he
believed it was lawful to limit Tsalot-Kobs to one religious group, Rastafarians,
rather than restricting Tsalot-Kobs on some religion-neutral ground—which was
the only question that this Court left open on remand.
Nevertheless, the District Court granted summary judgment to all
Defendants once again, and denied Barnes’ cross-motion.

The District Court

stated, without careful analysis, that Defendants “have now identified penological
reasons for the policy underlying [the Directive], insofar as it relates to the
restrictions on Tsalot-Kobs”; that Nuttall “could reasonably have believed that
such a restriction was constitutionally permissible”; and that Defendants who
merely followed the Directive had no reason to question its constitutionality. JA
287.

Barnes again appealed, and the Court appointed counsel to represent him.
After oral argument, the panel issued a summary order reversing as to Nuttall but
8

A

Case 18-3223, Document 145, 07/10/2020, 2881969, Page12 of 33

otherwise affirming the District Court’s decision. The panel explained that Nuttall,
the only Defendant who played a role in creating the Directive, was not entitled to
summary judgment because “officials may only abridge a prisoner’s free exercise
rights if doing so is reasonably related to some legitimate penological interests,”
and Nuttall “did not provide a declaration explaining the penological purpose
behind its creation.” Summary Order at 9 (internal citations and quotation marks
omitted). The panel held that it was error for the District Court to “impute[ ] the
penological interest articulated by Chappius onto Nuttall,” because Chappius’
“understanding” of the policy might not be consistent with Nuttall’s “reason for
signing the Directive.” Id. at 10.
However, the panel affirmed as to the remaining Defendants.

As to

Chappius, the panel held that the penological interest he asserted—to prevent
prisoners from concealing contraband—was “certainly a legitimate penological
interest,” id. at 8, ignoring the fact that it did not address the Directive’s restriction
of Tsalot-Kobs to one particular religion, the precise issue for which the earlier
panel had remanded. See JA 171 (remanding to determine “whether there was a
legitimate penological reason to limit only Tsalot-Kobs to inmates registered as
Rastafarian”). The panel also held that “it was reasonable for Bartlett, Fedele,
Murphy, and Stanley—each of whom attested that they were carrying out what
they believed to be a lawful policy—to enforce the Directive, as carrying out a
9

Case 18-3223, Document 145, 07/10/2020, 2881969, Page13 of 33

lawful policy is reasonable.” Summary Order at 9. The panel did not address the
settled law that qualified immunity for carrying out an unlawful policy depends on
whether the officer could reasonably believe that the policy was lawful. The panel
also ignored that none of these Defendants asserted any understanding of the
purpose of the Directive, and failed to explain why it was proper for the District
Court to effectively attribute Chappius’ “understanding” of the purpose of the
Directive to Bartlett, Fedele, Murphy or Stanley when it was error to impute it to
Nuttall. Id. at 10.
Finally, the panel made no express ruling at all as to Furman, who had not
even submitted a declaration claiming that he believed he was carrying out a lawful
policy. While the panel’s intent is thus unclear, the panel noted that the District
Court had granted summary judgment to “the Defendants who merely followed the
Directive—that is, eveiy Defendant other than Nuttall,” Summary Order at 6, and
the panel’s failure to separately discuss and reverse as to Furman strongly suggests
that it intended to affirm as to him as well.
REASONS FOR GRANTING REHEARING
I.

The Panel’s Decision Conflicts with Settled Supreme Court and Circuit
Precedent.
The panel’s ruling that the subordinate officers were entitled to qualified

immunity simply because they believed they were enforcing a lawful policy is
wrong and inconsistent with decades of precedent. It ignores settled Supreme
10

Case 18-3223, Document 145, 07/10/2020, 2881969, Page14 of 33

Court and Circuit authority and improperly immunizes all officers not immediately
involved in drafting state policies from being held responsible for their actions,
even where those policies clearly “violated plaintiffs [constitutional] rights.” JA
156.
The Supreme Court has made clear that state employees are not entitled to
qualified immunity simply because they were carrying out a state policy or the
orders of a superior, even if they subjectively believed the policy was lawful. As
the Court held in Wilson, “a policy . . . could not make reasonable a belief that was
contrary to a decided body of case law.”

526 U.S. at 617.

This Court has

repeatedly made the same point. See, e.g., Hartline, 546 F.3d at 103 (defendants
not entitled to qualified immunity as a matter of law even where strip search had
been conducted pursuant to municipal policy); Sorensen v. City of New York, 42 F.
App’x 507, 510-11 (2d Cir. 2002) (rejecting argument by low-level employees that
it “was objectively reasonable for them to believe that a policy promulgated by the
City was constitutional”); see also Burrell v. Zurek, No. 917-CV-0906 (LEK)
(TWD), 2019 WL 4051596, at *4 (N.D.N.Y. Aug. 28, 2019) (“[T]he Second
Circuit has held a defendant’s actions can be objectively unreasonable even if that
defendant was following a policy.”). Thus, in Lauro, this Court explained that
instructions from a superior officer support qualified immunity only if, “viewed
objectively in light of the surrounding circumstances, they could lead a reasonable
11

Case 18-3223, Document 145, 07/10/2020, 2881969, Page15 of 33

officer to conclude that the necessary legal justification for his actions exists.” 219
F.3d at 216.
Indeed, this Court reiterated the same point on Barnes’ first appeal. The
Court explained that, even “[wjhen officials follow an established prison policy . . .
their entitlement to qualified immunity depends on ‘whether a reasonable officer
might have believed that the challenged order was lawful in light of legitimate
penological interests supporting’ the directive.” JA 171 (quoting Holland, 758
F.3d at 223). The Court accordingly remanded to the District Court to determine
whether there was any penological interest that would justify limiting “TsalotKobs to inmates registered as Rastafarian.” JA 171. And the Court specifically
directed the District Court to determine whether “it was objectively reasonable for
those defendants to believe that denying a Tsalot-Kob to an inmate registered as
Jewish was constitutional.” JA 171 (emphasis added).
But on this appeal, the panel’s summary order ignored these fundamental
principles. Instead, with little analysis, the panel held that the subordinate officers
were entitled to qualified immunity simply because they claimed to believe they
were following a lawful order.

Indeed, the panel apparently granted qualified

immunity to one defendant, Furman, although he did not even make that simple
claim.

12

Case 18-3223, Document 145, 07/10/2020, 2881969, Page16 of 33

The record provides no support for Defendants’ claim that they were entitled
to qualified immunity. Defendants did not present any penological interest served
by the state’s Directive. While Chappius provided a declaration claiming a general
penological interest in curbing contraband, that interest provides no justification
for “believ[ing] that denying a Tsalot-Kob to an inmate registered as Jewish was
constitutional,” as the Court’s prior summary order required. JA 171 (emphasis
added). While the cited interest in curbing contraband is certainly legitimate, the
Defendants could have easily taken religion-neutral actions to achieve that
objective—for example, by restricting the wearing of Tsalot-Kobs in certain
locations or increasing the frequency of security checks for prisoners wearing
Tsalot-Kobs. See, e.g., Benjamin v. Coughlin, 905 F.2d 571, 579 (2d Cir. 1990)
(approving DOCCS policy restricting Tsalot-Kobs to designated areas to reduce
risk of contraband). Indeed, the Court recognized on the prior appeal that there
was likely “no legitimate reason for DOCS to afford members of only one religious
denomination the opportunity to adhere to a sincerely held religious belief.” JA
169-70 (citations omitted). But the panel’s order this time ignored this critical
point.
The panel also erred in imputing Chappius’ “understanding” of the basis for
the state policy to Bartlett, Fedele, Murphy, and Stanley. As the panel noted, these
Defendants asserted only “that they were carrying out what they believed to be a
13

Case 18-3223, Document 145, 07/10/2020, 2881969, Page17 of 33

lawful policy.” Summary Order at 9. But simply making that claim does not
entitle an officer to qualified immunity; indeed, one would be hard pressed to ever
find a defendant admitting that he did not believe he was carrying out a lawful
policy. The law requires much more: a showing that the defendant’s belief that
the policy was constitutional was objectively reasonable. Wilson, 526 U.S. at 617.
But Defendants made no such showing.
Moreover, since these Defendants asserted no penological interest to justify
their actions, the only way that the panel could have found in their favor is if it
ascribed to them Chappius’ penological justification. The panel found error in
doing just that with respect to Nuttall:

“[T]he district court imputed the

penological interest articulated by Chappius onto Nuttall. This was error, as
. nothing in the record sets forth Nuttall’s motivation or thinking.” Summary Order
at 10. But the panel inexplicably changed course with respect to all other
Defendants.
The panel’s errors were compounded by its disregard of undisputed evidence
that Defendants were not, in fact, acting in furtherance of the Directive or the
claimed security interest in seizing Barnes’ Tsalot-Kob. As several Defendants
explained, they did not confiscate Barnes’ headwear because of any concern about
inmates wearing Tsalot-Kobs—they did so because, in their view, Jewish prisoners
were only allowed to wear yarmulkes. See JA 69 (Chappius); JA 80 (Bartlett); JA
14

Case 18-3223, Document 145, 07/10/2020, 2881969, Page18 of 33

84, 87, 199 (Stanley); JA 144, 244 (Fedele). Defendants—and the panel—fail to
grasp the difference, but it is precisely the point:

Defendants would have

confiscated any headwear that was not a yarmulke. Nothing in the Directive
supports or authorizes this conduct.
Indeed, Defendants’ admissions undermine the very backbone of their claim
to qualified immunity—that they took away Barnes’ headwear because of security
concerns. Fedele, Furman, Murphy, and Chappius all admitted that they thought
that Barnes’ headwear was a Kufi, not a Tsalot-Kob.

See JA 144 (Fedele &

Furman); JA 193 (Murphy); JA 69 (Chappius). But Kufis were not restricted
under the Directive. If Defendants thought they were confiscating a Kufi from
Barnes, it cannot be because of anything in the Directive; it was solely because
they were acting under the mistaken notion that Jewish inmates could only wear
yarmulkes, a policy which finds no support in the Directive.

The record thus

demonstrates conclusively that Defendants were not acting pursuant to the
Directive.
Finally, the evidence also shows that Defendants failed to follow the
Directive’s procedural requirements. They seized Barnes’ Tsalot-Kob before the
investigation was completed by the facility Chaplain. See JA 210. And they relied
on a determination made by a non-Jewish Chaplain, instead of referring the matter
to a rabbi, as required by the Directive. See id. Defendants therefore could not
15

Case 18-3223, Document 145, 07/10/2020, 2881969, Page19 of 33

have “reasonably] . . . believed” that their actions were lawful based on the
Directive. Summary Order at 9.
Separately, the panel ignored Barnes’ appeal as to Defendant Furman. After
making a ruling as to Nuttall, the panel held: “As to the Defendants applying the
Directive—that is, Bartlett, Chappius, Fedele, Murphy, and Stanley—we conclude
that the district court did not err in granting them summary judgment.” Id. at 8.
Either the panel made no ruling regarding Furman, or it implicitly affirmed the
District Court’s grant of summary judgment in his favor. Either way, the panel
made a serious error. Furman failed to submit even a barebones declaration stating
that he believed he was following a lawful policy; he submitted no declaration at
all. The District Court nonetheless granted him summary judgment, and the panel
apparently affirmed.
The panel’s failure to apply the settled legal standards governing the
availability of qualified immunity warrants this Court’s attention. As the Supreme
Court has explained, “[i]n situations of abuse of office, an action for damages may
offer the only realistic avenue for vindication of constitutional guarantees.”
Harlow v. Fitzgerald, 457 U.S. 800, 814 (1982). Qualified immunity was designed
to balance the “interests in vindication of citizens’ constitutional rights and in
public officials’ effective performance of their duties.” Davis v. Scherer, 468 U.S.
183, 195 (1984).

An unfairly high qualified-immunity bar is particularly
16

Case 18-3223, Document 145, 07/10/2020, 2881969, Page20 of 33

problematic in the prison context, where an inmate has no ability to distance
himself from corrections personnel at the facility.
In its ruling, the panel disregarded these basic principles. It granted most
Defendants qualified immunity even where the Directive plainly “violated
plaintiffs [constitutional] rights,” JA 156, the officers provided “no legitimate
reasons” for those violations, JA 171, and did not even follow the Directive that
they claimed to be enforcing. Far from incentivizing rank-and-file corrections
officers to be thoughtful in their interactions with imnates, the panel’s order, if not
revised, would remove all accountability for those officers and signal they are free
to take unconstitutional actions so long as they can point to an unconstitutional
directive in their defense. Whatever the right balance is, it is not that. See Owen v.
City ofIndependence, 445 U.S. 622, 651 (1980) (“[Section] 1983 was intended . . .
to serve as a deterrent against future constitutional deprivations.”).

17

